No. 20-6633

In the Supreme Court of the United States
EDUARDO DAVID VARGAS, Petitioner,
v.
THE STATE OF CALIFORNIA, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN
OPPOSITION contains 2,438 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: January 13, 2021
Respectfully submitted,
XAVIER BECERRA
Attorney General of California
/S/ Kristen Kinnaird Chenelia
*KRISTEN KINNAIRD CHENELIA
Deputy Attorney General
*Counsel of Record
Counsel for Respondent
SD2020801970
82681709.docx

